<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








 
         MILITARY CONSTRUCTION, VETERANS AFFAIRS, 
          AND RELATED AGENCIES APPROPRIATIONS 
          FOR 2018 
                      _________
           
                             THURSDAY, FEBRUARY 16, 2017 
                             
                        MEMBERS DAY 
                        
         OPENING STATEMENT OF HON. CHARLES W. DENT 
         
  Mr. DENT [presiding]. Good morning. And welcome everybody to today�s 
Members Day hearing for Military Construction, Veterans Affairs, and 
Related Agencies. Chairman Frelinghuysen has en�couraged all 
subcommittee chairs to engage in these Members Day hearings so that 
we have an opportunity to hear from all of you re�garding the fiscal 
year 2018 appropriations process. 
  As a reminder, be sure to submit any requests for fiscal year 2018 
to the Appropriations Committee Member Request Database when it becomes 
available. That is more a message to the staff in the room. 
  At this time I have nothing further to say except I would like to 
recognize and acknowledge the ranking member, Ms. Wasserman Schultz, 
for any remarks she would like to make. 

              OPENING STATEMENT OF HON. DEBBIE WASSERMAN 
                               SCHULTZ 

  Ms. WASSERMAN SCHULTZ. Thank you, Mr. Chairman, and welcome to our 
colleagues. I, too, appreciate the opportunity to hear from each of 
our colleagues. We all have unique issues related to veterans and the 
military and the opportunity to hear from each Member, particularly 
those not on Appropriations, is one that al�lows us to really broaden 
our perspective as we write and then markup the military construction 
and the VA bill. 
  I know I always appreciate having a chance to go to committees and 
talk about my constituents� priorities to those colleagues who 
represent those issues every single day, and look forward to hearing 
from the Members. 
  Appreciate the opportunity, and I yield. 
  Mr. DENT. Well, thank you.
  And without objection, your written statements will be entered into 
the record. And please feel free to summarize your remarks here within 
5 minutes. I should let you know, too, I think we have six members who 
are going to be presenting, and so Ms. Radewagen and Mr. Cleaver will 
be our first two. 
  So with that, I would like to recognize the gentlelady from American 
Samoa. 



                                    (1) 




[TEXT NOT AVAIALBLE]




</pre></body></html>
